OIG Audit Report GR-70-06-010

Office of Community Oriented Policing Services Homeland Security Overtime Program Grant to the Pennsylvania State Police, Harrisburg, Pennsylvania

Audit Report GR-70-06-010


May 2006
Office of the Inspector General


Executive Summary





 The Office of the Inspector General, Audit Division, has completed an audit of Homeland Security Overtime Program (HSOP) grant the Office of Community Oriented Policing Services (COPS) awarded to the Pennsylvania State Police (PSP). The overall goal of the HSOP grant program is to provide funding directly to local, state, and tribal jurisdictions for the purpose of paying overtime to support community policing and homeland security efforts. The PSP’s objectives for its HSOP grant were to protect potential terrorist targets, work toward establishing round-the-clock intelligence operations, and establish innovative programs to promote homeland security. The COPS HSOP grant to the PSP totaled $2,740,309.1
 We found that the PSP did not fully comply with the grant requirements we tested. We reviewed its compliance with six essential grant conditions and found material weaknesses in two of the six areas: (1) grant drawdowns, and (2) grant expenditures. Additionally, although the PSP collected some performance data related to activities funded under the grant, it did not develop any performance measures nor did COPS require any as part of the grant award. As a result of the deficiencies identified below, we question $251,308 of grant funds received, and we recommend an additional $32,625 of grant funds be put to better use.2 The questioned costs and funds to better use total about 10 percent of the federal funding under the COPS grant.

 Upon expiration of the grant, $32,625 remained in unobligated funds. 
 The PSP charged $251,308 in unauthorized expenditures for social security, retirement, hospitalization insurance, health benefits, and regular time salaries to the grant. 
 The PSP did not develop performance measures related to activities funded under the grant, nor did it always collect, track, and analyze relevant data to determine specifically what it was accomplishing with the grant award. 

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with PSP officials and have included their comments in the report, as applicable. In addition, we requested a response to our draft audit report from the PSP and COPS, and their responses are appended to this audit report. 



Footnotes

As required by the terms of the grant, the PSP contributed an additional $913,436 as its 25-percent local match, bringing the combined funding total to $3,653,745. 
The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.